<html>
<title> - SPOTLIGHTING HUMAN RIGHTS IN SOUTHEAST ASIA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                     SPOTLIGHTING HUMAN RIGHTS IN 
                             SOUTHEAST ASIA

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2014

                               __________

                           Serial No. 113-187

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                 or 
                       http://www.gpo.gov/fdsys/

                                 ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-625PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas

   Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Lorne W. Craner (former Assistant Secretary, Bureau 
  of Democracy, Human Rights, and Labor, U.S. Department of 
  State).........................................................     6
The Honorable Tom Andrews, president and chief executive officer, 
  United to End Genocide (former United States Representative)...    17
Ms. Janet Nguyen, supervisor, First District, Orange County Board 
  of Supervisors.................................................    43
Thang D. Nguyen, Ph.D., executive director, Boat People SOS......    48

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Lorne W. Craner: Prepared statement................     9
The Honorable Tom Andrews: Prepared statement....................    20
Ms. Janet Nguyen: Prepared statement.............................    45
Thang D. Nguyen, Ph.D.: Prepared statement.......................    50

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    75
Thang D. Nguyen, Ph.D.: Material submitted for the record........    77

 
              SPOTLIGHTING HUMAN RIGHTS IN SOUTHEAST ASIA

                              ----------                              


                        WEDNESDAY, JULY 9, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:10 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee hearing will come to order.
    This hearing today is on human rights in Southeast Asia. 
America's commitment to protecting human dignity and justice 
around the world is unparalleled. We do more than any other 
nation, and we should because this is the one country founded 
upon this ideal. But this commitment, which has long enjoyed 
bipartisan support here in the United States, is a key focus of 
this committee. We have taken legislative action on human 
rights violations, particularly Venezuela, Nicaragua, North 
Korea, and the People's Republic of China.
    We are also working to strengthen the ability of the United 
States to promote human rights through international 
broadcasting.
    That is one of the reasons why this committee passed 
legislation to overhaul our international broadcasters so that 
those who are doing this surrogate radio broadcasting can send 
a message that teaches political pluralism, that teaches 
tolerance, that can have the kind of effect that we had in 
Eastern Germany and in the rest of Eastern Europe and the 
former Soviet Union.
    Yesterday, the House passed legislation to reauthorize the 
United States Commission on International Religious Freedom. As 
a body of experts who speak out on behalf of persecuted 
believers of any faith, the commission helps to ensure that the 
U.S. stands up for what many of us consider our first freedom.
    Unfortunately, now, when it comes to Southeast Asia, a 
strategically important region that is home to 620 million 
souls, the outlook on human rights is very troubling, in 
particular, with respect to Vietnam.
    In Vietnam, we have overwhelming evidence that the human 
rights situation is worsening, with the government continuing 
its severe crackdown on critics of the regime. We know that the 
Government of Vietnam suppresses virtually all dissent through 
intimidation, through physical violence, through very, very 
long prison terms. These young bloggers are typically getting 7 
years in prison if they blog about ideas like freedom of 
speech. In my own travels to Vietnam, I have seen firsthand the 
lengths that the Secret Police will go to in order to stifle 
any form of free speech or religious freedom. I met with the 
Venerable Thich Quang Do, the head of the Unified Buddhist 
Church in Vietnam, as well as another religious leader, who was 
held in prison and, basically, saw firsthand what was being 
done to stifle religious freedom in the country. We have had 18 
meetings now of the U.S.-Vietnam Human Rights Dialogue. There 
is no improvement in the human rights situation. I call on the 
Government of Vietnam to immediately cease its human rights 
abuses. We call on the Government of Vietnam to release the 
political prisoners there.
    In Burma, the regime's early progress on human rights has 
given way to worsening conditions for religious and ethnic 
minorities all over that country. The plight of the Rohingya 
Muslims is well documented, thanks to groups such as United to 
End Genocide. The Government's treatment of the Rohingya 
Muslims is beyond deplorable. Forced to live in what I would 
call concentration camps there, the Rohingya are systematically 
deprived of access to health care and threatened with physical 
harm as well as death. The expulsion of Doctors Without 
Borders, the only group providing health care to the Rohingya 
caused 150 people to die from otherwise curable diseases is 
another example.
    It is time that we take off the rose-colored glasses and 
see the situation in Burma for what it is. We cannot--we, the 
United States, cannot continue to lavish more incentives on the 
government in Burma in hopes that it will one day do the right 
thing. And that is why I have repeatedly called on the 
administration to work with this committee to improve human 
rights in that country. We must immediately cease military-to-
military cooperation with Burma until the systematic 
persecution of Rohingya Muslims and other minorities has ended 
there.
    Too often the administration, like the administrations that 
preceded this administration, is more interested in not 
ruffling diplomatic feathers than carrying out the difficult, 
but necessary task of pressing for human rights. But human 
rights do not have to take a back seat to strategic 
considerations. The administration must recognize that its 
rebalance to Asia will be unsustainable without improvements in 
this area. Countries that do not respect their citizens' 
fundamental human rights will not and cannot be true enduring 
partners for the United States. And this isn't to say that we 
must cut off all ties when human rights abuses occur, but it is 
imperative that we speak out. And that is my point. It is 
imperative that we get in, lean in there, sit down with these 
governments and explain that these deplorable situations in 
Vietnam and in Burma need to be reversed. There is no excuse 
for silence on this issue.
    Now, before I turn to the ranking member, Mr. Engel from 
New York, for his opening remarks, I want to take the 
opportunity to welcome Janet Nguyen, supervisor of Orange 
County's First District, to this committee. Janet's story is a 
story of millions of Vietnamese who fled their homeland in 
search of a life free from the horrific human rights abuses 
that we still see perpetrated today in that country. Janet has 
come a long way from the dangerous journey that her family took 
on a 30-foot raft when she was just a small girl fleeing her 
war-ravaged homeland. Today Janet is the highest ranking 
Vietnamese-American to hold elective office in California. And 
just as important, Janet is a tireless advocate for the 
Vietnamese-American community in southern California and 
throughout our country. And we welcome her as well.
    Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for holding 
this important hearing.
    And let me also thank our distinguished witnesses for 
joining us today.
    In late 2011, the Obama administration announced an 
American strategic rebalance or pivot to the Asia-Pacific 
region. While the contours of the rebalance is still taking 
shape, the logic behind the policy shift is clear.
    The Asia-Pacific is home to almost half of the world's 
population and more than half of global trade and GDP. This 
region will be a key driver of global events in the decades to 
come and central to America's international interests as a 
Pacific power.
    It is important that the United States continue to 
strengthen our relationships with key allies in the region, 
including Japan, South Korea, Australia and the Philippines.
    We should also deepen strategic partnerships with emerging 
powers in the region, like India and Indonesia, and take steps 
to further connect our people and our economies.
    Mr. Chairman, the Asian rebalance includes important 
political, economic, and strategic dimensions, and these 
priorities are inseparable from our obligation to promote 
greater respect for human rights, democracy and the rule of 
law.
    After all, when citizens enjoy full political and economic 
participation, it helps unleash a country's full potential.
    Governments that are transparent and accountable, in turn, 
grow more responsive and effective. Nations become stronger 
partners on the world stage and project stability across 
regions.
    So for the United States, promoting human rights in the 
Asia-Pacific is the right thing to do and it is also the smart 
thing to do. Some countries in the region have made significant 
progress in these areas. Others have not.
    As you mentioned, Mr. Chairman, in Vietnam, for example, 
the Communist government continues to place severe restrictions 
on political rights and religious freedom. Dissenters face 
restriction of movement, arbitrary detention and endless 
harassment.
    In Cambodia, human trafficking remains a serious problem, 
although we have seen some efforts to improve law enforcement 
efforts around this crime.
    Still, the Cambodian People's Party continues to 
consolidate power, tighten its choke hold on the media, and 
silence human rights advocates.
    The Cambodian Government also has failed to stop illegal 
land grabs. In January 2013, 300 families living in central 
Phnom Penh lost their homes to developers and, after forceful, 
violent removal by security forces, were relocated to squalid 
sites outside of the city.
    With regard to Burma, I want to commend the administration 
for its efforts to work with the government there to enact some 
long overdue reforms.
    At the same time, I am very concerned about the systematic 
human rights abuses and ethnic violence in some parts of the 
country.
    The State Department reported last year--and I quote:

        ``Extrajudicial killings, rape and sexual violence, 
        arbitrary detentions and torture and mistreatment in 
        detention, deaths in custody and systematic denial of 
        due process and fair trial rights overwhelmingly 
        perpetuated against Rohingya.''

    These horrendous acts of violence have displaced 140,000 
Rohingya within Burma and have pushed thousands to neighboring 
countries, including Thailand, Bangladesh, and Malaysia.
    We need to see real progress from Burma's leaders on these 
human rights issues before we provide the military-led 
government with any further concessions.
    So as we can see, Mr. Chairman, many challenges remain 
across the region. Tackling them won't be easy, but it is 
important that the United States prioritize human rights as 
part of a pivot or rebalance to the Asia-Pacific.
    I want to thank you again for holding this hearing, and I 
look forward to hearing from our excellent witnesses.
    I want to call out our former colleague, Tom Andrews, with 
whom we have both had the pleasure to serve, and welcome all 
the witnesses today.
    I look forward to all of your testimony.
    Thank you. I yield back.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to Mr. Chabot for his opening statement.
    Mr. Chabot. Thank you, Mr. Chairman. I will be brief.
    I share your deep concerns about the human rights situation 
in Southeast Asia and strongly support your efforts to 
highlight the rampant abuses committed in the region.
    I am particularly concerned about the deteriorating 
situation in Burma and Cambodia, where the ruling regimes seem 
to be concerned more about investment opportunities than the 
fundamental rights of their own people.
    In Cambodia, we have seen land grabs and increasing 
crackdowns by the Hun Sen government. In Burma, we have been--
excuse me--we have seen complicity by the ruling junta in an 
ethnic cleansing campaign against the Rohingya Muslims.
    I have worked quite a bit with one of our panel members, 
Mr. Andrews, and he has spent considerable time in Burma, 
working to expose the horrific conditions faced by so many 
Burmese and trying to get them the basic assistance, especially 
access to medical care that every human being deserves.
    Tom, thank you for your work there. We certainly appreciate 
it.
    And I will yield back.
    Chairman Royce. Any other members on this side of the aisle 
like to make an opening statement?
    Mr. Lowenthal. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Lowenthal, go ahead.
    Mr. Lowenthal. Thank you, Mr. Chairman.
    I would like to thank all the witnesses for appearing here 
today on this very important issue.
    I especially would like to welcome Supervisor Janet Nguyen, 
who represents the cities of Westminster and Garden Grove in my 
district, home to the largest Vietnamese-American community in 
the United States.
    We have all seen, as has been pointed out by my colleagues, 
how the state of human rights in many countries across 
Southeast Asia has deteriorated in recent years to the 
detriment of millions of people who call the region home. I 
would like to highlight two countries in particular.
    In Vietnam, the one-party government rules without respect 
for the rights of its citizens enshrined in its own 
constitution. The Vietnamese Government has punished those who 
speak out and exercise their basic human rights with jail 
sentences.
    As a member of the Tom Lantos Human Rights Commission, I 
have adopted the case of two prisoners of conscience: Blogger 
Nguyen Tien Trung and Pastor Nguyen Cong Chinh.
    These cases highlight the Vietnamese Government's trampling 
of free speech and religious freedom. While Trung has been 
released from prison to home arrest, Pastor Chinh and hundreds 
of other prisoners of conscience continue to remain in prison.
    Chairman Royce. We will go now to Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. Thank you for 
calling this extraordinarily important hearing. And I will just 
bring focus on one issue, and that is Vietnam.
    In 2004, I authored the Vietnam Human Rights Act, passed 
323 to 45, no vote in the Senate. In 2007, the same bill passed 
414 to 3. In 2012, the Vietnam Human Rights Act passed 
unanimously. And then just recently, a year ago almost, 405 to 
3.
    Four times I have offered the Vietnam Human Rights Act with 
strong support of virtually every member of this committee, 
totally bipartisan.
    And we have written Majority Leader Reid and asked simply 
for a vote. You can vote against it, Mr. Senator, but please 
don't block a vote.
    This is an idea whose time has come. Vietnam is in a race 
to the bottom with the likes of China and even North Korea, 
particularly when it comes to religious freedom, as Hoang Van 
Ngai was tortured to death in July 2013 and then his cousin, 
Hoang Van Sung was tortured to death April 2014.
    Let me finally just say--because my time is running out--
there is an active effort to suppress this legislation.
    The Podesta Group was hired last December. They were paid 
$30,000 per month through June 2nd, $180,000 in total. And I 
suspect the contract has been renewed, but the filings haven't 
been shown yet. No wonder the Senate won't take it up.
    And, unfortunately, the President--I know the President's 
people are here--I hope you will take it back. This is a 
modest, well-calibrated, piece of human rights legislation, and 
the people at this dais, many of whom--Dr. Thang especially--
helped us write it. So it is as accurate as the day is long.
    This is an idea whose time has come. Vietnam, like I said, 
is in a race to the bottom with some of the worst dictatorships 
throughout the world. It is time to pass this legislation. Just 
give it a vote in the United States Senate.
    I yield back.
    Chairman Royce. Thank you, Mr. Smith.
    This morning we are joined by a distinguished group of 
witnesses.
    I will start with Mr. Lorne Craner. He served as president 
of the International Republican Institute that oversaw 
elections around the world. He was Assistant Secretary of State 
for Democracy, Human Rights, and Labor from 2001 to 2004.
    Some of us in our work and bipartisan effort--myself and 
Gregory Meeks and some of the other members here--had an 
opportunity to meet with Lorne. I think it was in 1999 when I 
co-led an election oversight team with General Powell on the 
Nigerian elections.
    And I was just reflecting--I just asked my staff--over the 
years we have heard Lorne testify a number of times between the 
Senate and the House, different committees.
    They did a quick tally back here, and they say you have 
testified over 25 times. I am glad your sons are here to hear 
you testify today, Lorne. Thank you.
    Mr. Andrews, Tom Andrews, president and chief executive 
officer of United to End Genocide, was our former colleague 
from the state of Maine. He most recently served as national 
director of Win Without War.
    Ms. Janet Nguyen, supervisor for the First District of 
Orange County, first woman supervisor to represent that 
district, first Asian-American, first Vietnamese-American to 
serve on the Board of Supervisors, as well as the youngest 
supervisor elected in the history in Orange County.
    And we have Mr. Thang Nguyen, executive director of Boat 
People SOS. Many of us know him from his humanitarian work over 
the years. He is also the co-founder of Coalition to Abolish 
Modern Day Slavery in Asia.
    Without objection, the witnesses' full prepared statements 
will be made part of the record and the members will have 5 
calendar days to submit statements and questions and other 
extraneous material for the record.
    Chairman Royce. Mr. Craner, if you would like. We would ask 
you, though, to please summarize your remarks, if you could, 
and then we will go to questions.

 STATEMENT OF THE HONORABLE LORNE W. CRANER (FORMER ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. 
                      DEPARTMENT OF STATE)

    Mr. Craner. Mr. Chairman, members, thank you very much for 
the opportunity to testify before you. And thank you, Mr. 
Chairman, for your kind words.
    The countries we are discussing are in different stages of 
democratic development, an important factor in considering 
policies toward them.
    Let me start with Burma, where we are all familiar with the 
country's democratic opening, but large problems remain, 
including allowing Aung San Suu Kyi to run in the 2015 
elections.
    Less remarked upon has been the violence between Burma's 
Buddhists and Muslims. The Rohingya's plight is different from 
other Burmese ethnic groups in that they are persecuted by the 
country's religious majority, including many Buddhists, who had 
worked for a political opening.
    Led by Secretary Clinton, the administration did an 
exceptional job in rapprochement with Burma. That said, it was 
a front-loaded process that left us with few carrots to 
encourage Yangon today.
    In looking at influencing events, however, we need to 
remember the reasons Burma opened up: China's tight embrace and 
the fact that the country was declining economically.
    The transition is delicate, but the likelihood of a return 
to China and isolation diminish by the day. We should think 
through thoughtful measures to help the Rohingya and encourage 
reform.
    First, we should add those responsible for violence and 
their families to our visa ban and SDN investment list. Second, 
we should limit contacts with Burma's security forces. Third, 
with the spread of sectarian violence to Mandelay last week, 
the U.S. should look at reimposing some past sanctions.
    We need to work closely with our European, Australian, and 
ASEAN friends, some of whom are receiving large Rohingya 
refugee flows, particularly on visa and investment issues.
    Cambodia's sad history continues, thanks to Hun Sen, who 
has essentially run the country in one way or another since 
1985.
    The 2013 elections were clearly flawed even before they 
occurred, which is no small feat. After the election, the 
opposition CNRP, claiming widespread fraud, refused to take 
their seats in Parliament and began demonstrations, which were 
repressed by the police. The CNRP today continues its 
parliamentary boycott and is negotiating over arrangements for 
future elections.
    Two important trends were obscured by these events. First, 
the CNRP did remarkably well in the elections, winning 44 
percent of the vote to the CPP's 49. Second, there was higher-
than-usual youth voter turnout, and that benefited the CNRP.
    Our pivot to Asia, which we have already mentioned here 
today, should not inhibit actions to support democracy in 
Cambodia. Hun Sen remains closely aligned with Vietnam, but he 
cultivates a close relationship with Beijing.
    The next National Assembly elections will occur in 2018, 
and looking at our U.S. aid funding there, there should be more 
youth civic education and a resumption of political party 
training.
    Third, a congressional review of U.S. training for 
Cambodia's military is overdue. Fourth, we should limit contact 
with Hun Sen's government until negotiations with the 
opposition are satisfactorily included. Again, we should ask 
our European, Australian, and ASEAN friends to do the same.
    On Vietnam, many of us had hoped that diplomatic relations 
and trade between our two countries would lead to more 
political openness. We were wrong. Vietnam is the most 
politically repressive country we are discussing, a one-party 
state that tolerates no opposition.
    There have been minor changes over the last decade, but 
they are limited to reforms within the existing political 
system, not reform of the system. And over the last few years, 
things have worsened, with a stream of arrests and trials for 
journalists, bloggers, and dissidents.
    We have a tendency to treat Vietnam as a special country, 
given our involvement there. To borrow an old phrase, in 
dealing with Vietnam on human rights today, we instead need to 
think of it as a country, not a war.
    The pivot to Asia has increased Vietnam's strategic 
importance to the U.S. But given their long mutual antipathy 
with China, we need to keep in mind America's importance to 
Vietnam.
    We should start by pressing harder for an end to the 
campaign against those who peacefully question the leadership 
and seek the release of those already in prison for such 
activities.
    There should be more broadcasting to Vietnam by our 
services. We should also push for structural changes in those 
laws and policies that penalize such activities, again, 
conducted in a multi-lateral way with European, Australian and 
ASEAN allies.
    Mr. Chairman, our economic and strategic interests are 
clearly trending toward the Asia-Pacific area. Our hope is to 
continue to shape a peaceful and prosperous future for the 
region.
    We should seek to repeat our past successes and not our 
past failures in other regions by helping those who seek rights 
and democratic institutions. In the long run, this will be 
indispensable in advancing our interests in the region.
    Thank you for the opportunity to testify today.
    Chairman Royce. Thank you, Mr. Craner.
    [The prepared statement of Mr. Craner follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Mr. Andrews.

  STATEMENT OF THE HONORABLE TOM ANDREWS, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, UNITED TO END GENOCIDE (FORMER UNITED STATES 
                        REPRESENTATIVE)

    Mr. Andrews. Thank you, Mr. Chairman, and thank you very 
much for convening this important hearing. It is an honor for 
me to be here.
    I also want to thank you for the leadership that you have 
provided in bringing what has been an inconvenient truth about 
Burma to the attention of this Congress and to the public: The 
systematic abuse, discrimination and assault on members of 
minority communities, from the Rohingya ethnic minority in the 
west, to the Kachin and Shan ethnic minority states to the 
east, to Muslims, who are finding themselves threatened and 
under attack in communities throughout Burma.
    I have traveled extensively in Burma over the last 3 years, 
and I can report to you, Mr. Chairman, that the brutal reality 
that I discovered in my travels contradicts the pervasive--the 
all-too-pervasive good-news narrative of a nation securely on 
the path to democracy, justice and the rule of law.
    I made several visits to what you aptly described as 
concentration camps in western Rakhine that house more than 
140,000 members of Rohingya Muslim community. These men, women 
and children were marched to these camps after violence 
destroyed their villages and neighborhoods in Sittwe.
    They have been confined there ever since, living wretched 
lives in isolation with virtually every aspect of their lives 
controlled by government security.
    Approximately 1,200,000 additional Rohingya live in other 
areas of Rakhine State. While their homes and villages have not 
been torched in ethnic violence, they, too, live in fear and 
face restrictions on their freedom of movement, on who they can 
marry, on how many children they can have, on access to 
education, and on the construction of religious buildings.
    These unbearable conditions have led tens of thousands of 
Rohingya to leave at sea. The U.N. Refugee Agency estimates 
that some 80,000 Rohingya have fled by boats since 2012. Of 
those, hundreds, if not thousands, are believed to have 
drowned.
    Those who have survived have ended up in surrounding 
countries, such as Thailand or Malaysia, who often fall victim 
to human traffickers who imprison them or force them to work on 
rubber plantations or as sex workers until family members come 
up with ransom.
    I traveled to Malaysia, where I followed and met with some 
of these people and their families, and they told me 
personally, Mr. Chairman, that the risk that they took was 
greater than the living hell that they were bearing within 
Burma.
    The suffering of--the decision that you mentioned, Mr. 
Chairman, of the eviction of Doctors Without Borders from 
Rakhine State continues to this day.
    One hundred and fifty people, in fact, died in the first 2 
weeks of that expulsion, and that was the end of February. It 
is unimaginable how many people have died. But I have seen 
them. I have spoken with them. I took photographs and met with 
their family.
    And, Mr. Chairman, when you were advancing a resolution on 
the Rohingya on the Floor of the House, you displayed 
photographs that I took in those camps of these people.
    And I am afraid to say, Mr. Chairman, that some of those 
photographs of some of the families and people that you 
displayed on the Floor have since perished.
    The Government of Burma claims that it can fill the gap 
that has been left by the expulsion of Doctors Without Borders, 
but I can tell you that Doctors Without Borders last year alone 
provided more than 400,000 healthcare consultations and over 
2,900 emergency referrals. There is no way the Government of 
Burma can meet that need.
    While the plight of the Rohingya in western Burma, of 
course, is the most egregious and urgent, anti-Muslim campaigns 
stretch across the entire country.
    The infamous so-called ``969 Movement'' of extremist 
Buddhist monks, led by Ashin Wirathu, the self-proclaimed 
Buddhist Bin Laden, systematically exploits and fans popular 
fear and prejudice.
    He calls Muslims dogs; African carp who breed quickly and 
are violent, and they eat their own kind. I am quoting now, Mr. 
Chairman:

          Such dehumanization, the use of hate speech in well-
        organized campaigns, the denial of basic health care, 
        and the systematic persecution of a specific people are 
        all known precursors to genocide.''

    But Muslims are not the only people under siege. Over the 
last 3 years, government forces tortured and raped many in the 
Kachin and northern Shan states.
    A report by Fortified Rights last month documented 
systematic use of torture and other cruel, inhumane and 
degrading treatment or punishment of more than 60 civilians by 
military authorities.
    Similarly, a report by the Women's League of Burma has 
documented more than 100 cases of rape being committed by 
Burma's military. It is being used, as they say, as a tool 
against ethic minorities.
    I was in Kachin State when, in fact, Aung San Suu Kyi was 
elected to Parliament, and I saw firsthand the violence that 
were occurring in those villages.
    It was a stark reminder to me of the dark side of 
developments of Burma that cannot be ignored even as we want to 
celebrate the positive reforms that indeed have been made.
    Mr. Chairman, I believe that the disturbing conditions and 
trends in Burma require a fundamental reassessment and 
recalibration of U.S.-Burma policy. I have outlined some of 
those specifically.
    One of them is the increasing number of high-level 
officials of the United States going to Burma. Secretary of 
State Kerry is scheduled to go there next month. President 
Obama is scheduled to visit Burma in November.
    I think all of these trips, these indicators by the United 
States of growing acceptance of conditions in Burma, need to be 
questioned and challenged and stopped.
    Mr. Chairman, I appreciate you holding this hearing. I very 
much appreciate your concern for the people of Burma. And I 
will be very happy to answer any of your questions.
    Chairman Royce. Tom, we appreciate your work on human 
rights.
    [The prepared statement of Mr. Andrews follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Janet.

  STATEMENT OF MS. JANET NGUYEN, SUPERVISOR, FIRST DISTRICT, 
               ORANGE COUNTY BOARD OF SUPERVISORS

    Ms. Janet Nguyen. Good morning, Honorable Chairman Royce, 
and members of the House Committee on Foreign Affairs.
    I want to particularly thank Chairman Royce for your 
decades of leadership in support of the County of Orange and 
the cities and residents you represent, particularly your 
effort in fighting for human rights in Vietnam.
    I also want to thank Congressman Rohrabacher and, also, 
Congressman Lowenthal. Your representation and leadership in 
Orange County and, also, for the people of Vietnam is greatly 
appreciated.
    It is my honor to be here before this esteemed committee to 
comment on the continuing violations of religious freedom and 
individual rights in Vietnam.
    In the end, I request your assistance in fighting for 
greater respect for personal liberty by the Government of 
Vietnam and the release of human rights advocates, who are 
currently in prison throughout Vietnam, by supporting H.R. 
4254, which has been introduced by Chairman Royce and which I 
have had the distinct privilege of assisting in drafting. It 
has also been approved by the Orange County Board of 
Supervisors.
    Despite Vietnam's status as one of the U.S.' normal trade 
partners, Vietnam has not reduced its oppression of its people, 
including journalists, dissidents and human rights advocates.
    As a county supervisor, whose district includes the Little 
Saigon community, which is the largest Vietnamese community 
outside Vietnam, I speak for many in voicing our concerns about 
the continuing political oppression which exists in Vietnam and 
hope that we in the United States will stand up and demand that 
Vietnam respect the basic tenets of freedom and democracy that 
we, as a Nation, expect from our trade partners.
    As a beacon of civil liberties around the world, our 
country has never shied away from its commitment to basic human 
rights. We will not stand idly by while tyrants repress their 
people, least of all our own trade partners.
    Access to our economy and the opportunity has for financial 
benefits that such access presents--must be earned through 
compliance with the basic rules of human dignity and fairness 
we live by.
    Unfortunately, Vietnam has continued to push the limits of 
our tolerance in this regard. Almost 4 decades after the 
Vietnam war, Vietnam has continued its use of force, 
intimidation and imprisonment to silence and oppress its 
people.
    The incarceration of songwriter Tri Minh Vo, also known as 
Viet Khang, who has been sentenced to 4 years in prison, is a 
prime example of the political oppression that the Vietnamese 
people must continue to live under.
    There are also other examples of oppression in legal 
detention and suppression of free speech and religious figures 
throughout Vietnam, such as the Venerable Thich Quang Do, 
Reverend Nguyen Van Ly, Reverend Nguyen Cong Chinh, Blogger 
Dieu Cay, also known as Nguyen Van Hai, as well as countless 
other human rights fighters.
    We believe the United States alone has the unique power to 
effectuate political change in Vietnam. And for that reason, we 
appeal to this committee to lend your support to this noble 
cause.
    As the highest ranking Vietnamese-American elected official 
in California, I humbly ask that you support H.R. 4254. This 
action will send a clear message to the Government of Vietnam 
and the officials engaging in the violation of human rights 
that United States has no tolerance for intolerance and 
political suppression and that we will hold those officials 
personally accountable for their actions.
    I hereby submit a representative number of signatures from 
thousands of community members from around the country which 
has been displayed to show the overwhelming support for H.R. 
4254.
    I also submit a list of names of Vietnamese citizens who we 
believe have violated the basic human rights of other 
Vietnamese citizens. A case summary with evidence of each of 
their violations is included for your review.
    Given their blatant disregard for human rights, these 
individuals should not be allowed entry into the United States 
of America, nor should they have the ability to use our 
financial system for their own personal benefit.
    Therefore, I urge you to consider adopting the list of 
individuals who are complicit in human rights abuses under H.R. 
4254 and adding these individuals to that list for sanction.
    I would also like to take this opportunity to express the 
concerns of Vietnamese-Americans everywhere that, despite 
international condemnation, China has become more militarily 
aggressive against its neighbors over the past few years.
    China's aggression has escalated and now includes the 
violation of Vietnam's territorial rights and the capsizing of 
a Vietnamese fishing boat on May 26th this year with ten 
fishermen onboard.
    This conduct is unacceptable and poses a threat to the 
stability of the region. These actions are hostile and 
detrimental to the sovereign interests of Vietnam.
    An example of these actions include China deploying an 
illegal deepwater oil rig in Vietnam's Exclusive Economic Zone, 
ramming into Vietnamese private fishing boats, and firing a 
water cannon at a Vietnamese naval patrol ship, which injured 
several sailors.
    Given China's increasing aggression, I am fearful that 
these aggressions could soon result in a loss of life and 
escalate tension in the South Asia Sea.
    I ask that this committee also look into this issue, as it 
may significantly impact our Nation's interests in the Pacific 
Rim.
    Again, thank you for your time and your attention and for 
the opportunity to speak to you today. And I am available for 
any questions.
    Chairman Royce. Thank you, Supervisor Nguyen.
    [The prepared statement of Ms. Janet Nguyen follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thang, go ahead with your testimony, 
please.

 STATEMENT OF THANG D. NGUYEN, PH.D., EXECUTIVE DIRECTOR, BOAT 
                           PEOPLE SOS

    Mr. Thang Nguyen. Thank you, Mr. Chairman and distinguished 
members of the committee.
    Vietnam has one of the worst human rights records in 
Southeast Asia. From time to time, its government releases a 
number of prisoners of conscience.
    However, over the same period of time, they usually arrest 
and detain a lot more. So the list of prisoners of conscience 
has grown longer and longer.
    There is no freedom of expression, including freedom of 
Internet, or peaceful assembly or association in Vietnam, and 
that affects the entire society.
    Most affected are the faith communities, particularly those 
located in remote regions and those among ethnic minorities.
    Decree 92, which took effect in January 2013, has been used 
by the authorities to sanction and restrict religious 
activities and, at times, even to eliminate independent 
religious groups.
    On July 3rd of last year, for instance, the police in Tien 
Giang Province supported members of the Caodai Governance 
Council, which was set up by the government, to forcefully take 
over the Long Binh Temple using violence. And Long Binh Temple 
was one of the few temples that was still operated by 
independent Caodai followers.
    The attackers knocked down the front gate of the temple and 
assaulted with clubs and rocks the 20 Caodai leaders and 
followers who were conducting a religious ceremony inside the 
temple.
    And this is the picture of these attackers. They were 
surrounding the temple and, eventually, they took it over, with 
the support of the police. And, amazingly, the police arrested 
not the attackers, but the victims.
    The Vietnamese Government continues to force ethnic 
Christians to renounce their faith. For example, earlier this 
year, in January, the authorities in Dak Lak Province--that is 
in central Vietnam--arrested, detained and tortured Pastor Y 
Noen Ayun and Missionary Y Jon Ayun--they are both Montagnards 
of the Vietnam Evangelical Church of Christ--until they had to 
sign a statement agreeing to renounce their faith.
    Likewise, the authorities have systematically forced Hmong 
Christians in central Vietnam and, also, in northern Vietnam to 
return to the so-called ancestral beliefs, which means forced 
renunciation of their faith.
    On March 17th of last year, the local authorities in Dak 
Nong Province, central Vietnam, tortured to death Hoang Van 
Ngai, a Hmong Protestant deacon. That is the case mentioned by 
Chairman Smith. And this is a picture of Deacon Ngai when he 
was still alive, standing right at the center here in front of 
his church.
    And then 3 months ago the authorities in Cao Bang Province, 
all the way in the north, detained Ngai's cousin because he was 
suspected by the authorities of having initiated a complaint 
which was signed by all family members and relatives of Ngai 
about his death.
    Ten days later the police delivered Ngai's cousin's body in 
a sealed coffin to his family and ordered the family not to 
open it. The police stood watch until after the burial to 
ensure that the coffin was never opened.
    Then the police in both Dak Nong and Cao Bang Provinces--
this shows clearly there is coordination among the provinces--
went after all the relatives of Ngai who had signed the 
complaint.
    Last month our office in Bangkok received 55 relatives of 
Ngai, who had to flee their villages to Thailand to seek 
protection, along with Ngai's children and wife.
    Those relatives of Ngai who remain in Vietnam are now being 
hounded by the police, harassed, threatened and persecuted by 
the local authorities.
    The situation of religions in Vietnam is best summed up by 
Hua Phi, a clergy member of the independent Caodai sect:

        ``In Vietnam, only the religious sects that follow the 
        directions of the government will be allowed to 
        function. Those that do not will meet harassment and 
        repression.''

    Over the next 6 months, there will be a number of 
opportunities for this Congress to act on Vietnam to make sure 
that human rights will be a cornerstone in U.S. policies toward 
that country, namely, the Nuclear Cooperation Agreement with 
Vietnam, the lifting of the ban on sale and transfer of lethal 
weapons to Vietnam and, most importantly, negotiations with 
Vietnam on its participation in the Trans-Pacific Partnership, 
or TPP.
    We should demand fundamental improvements, to include the 
unconditional release of all prisoners of conscience, the 
elimination of all the instruments of repression that have been 
used by the government in Vietnam to arrest and detain and 
imprison these dissidents and, also, the full respect of the 
right of workers to form and join free and independent labor 
unions.
    With that, I would like to thank you, Mr. Chairman, and all 
the members of the committee. Thank you.
    Chairman Royce. Thank you, Mr. Nguyen.
    [The prepared statement of Mr. Thang Nguyen follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. I was reading this Human Rights Watch 
report, and it says,

        ``The situation in Vietnam deteriorated significantly 
        in 2013. The year was marked by a severe and 
        intensifying crackdown on critics, including long 
        prison terms for many peaceful activists whose crime 
        was calling for political change.''

    We are aware of that crackdown because we have had hearings 
and been shown photos of what has happened to those students 
and religious leaders who have called for religious liberty or 
freedom of speech.
    Supervisor Nguyen--you are in a unique position of speaking 
with people from Vietnam. A lot of people have family back in 
Vietnam.
    Do they see the trend lines in Vietnam? What do they share 
with you about their hopes, aspirations, what they think is 
happening? Maybe you could just give us the insight from the 
community.
    Ms. Janet Nguyen. Thank you, Mr. Chairman.
    Because of what is going on with China, there has been more 
and more willingness to come out and speak against China.
    However, the country of Vietnam has not been very 
supportive of that. So there is a greater mix of concerns 
within Vietnam that freedom and democracy are not going to 
change.
    In the United States, with your leadership and this 
committee, we need to force the country of Vietnam to allow the 
freedom of speech.
    Chairman Royce. How do you see efforts in Congress, such as 
H.R. 4254, the Vietnam Human Rights Sanctions Act, trying to 
target or list those who are involved specifically in human 
rights abuses--how do you see that impacting change in Vietnam?
    Ms. Janet Nguyen. It will have a great impact, Mr. 
Chairman, because H.R. 4254 particularly targets individuals, 
not the country of Vietnam, but the individual who imposes 
these violations.
    Whether they are judges, elected officials, police 
officers, or chiefs of police, these individuals will now have 
a responsibility and have to think twice before taking any kind 
of actions against individuals and citizens of Vietnam. If not, 
they will not be allowed in our great country or be able to use 
our financial institution.
    And so now we are looking at targeting individuals, and, 
hopefully, this will make them think twice, three times before 
they impose actions against individuals.
    Chairman Royce. Targeting those who use the truncheons or 
those that order the beatings----
    Ms. Janet Nguyen. Yes.
    Chairman Royce [continuing]. Or order the arrests of 
people, young bloggers, for simply talking about an issue like 
freedom of speech.
    Ms. Janet Nguyen. Yes. And not only that, Mr. Chairman, 
but, also, individuals such as judges who do not allow the 
court system to be fair.
    Chairman Royce. Right. Right. Right.
    Okay. Let me ask Mr. Craner.
    Lorne, I was going to ask you about Cambodia. I have been 
speaking to our Ambassador there and our undersecretary about 
the situation that exists with respect to violence directed at 
the political opposition and the sense of fear and, again, you 
know, the amount of violence and the lack of respect for the 
political process, for the democratic process, by the 
government in power, to say nothing of the land grabbing or 
whatever you want to call the process whereby land is routinely 
taken from people in the countryside and turned over to those 
who are politically well connected to the government or to 
generals.
    What can be done in terms of additional pressure to call 
international attention to this and end this egregious process? 
Because it is affecting families all over Cambodia today.
    Mr. Craner. I think a couple of things beyond the measures 
that I outlined. And I think one thing that we all have in 
common is a belief that the United States should not extend 
courtesies, recognition, by meetings and other methods, to 
governments like this, and I think in the particular case of 
Hun Sen.
    I think in this case, also, we need to bring in our 
European allies and our regional allies, Australia and ASEAN, 
in trying to put pressure on the Cambodian Government to begin 
to open up the system.
    It is one thing if the U.S. is pushing for that. It is 
another thing if we can get other countries engaged. But we 
need to recognize, I think, as long as Hun Sen is in control in 
Cambodia, very little is going to change.
    And he is saying that he intends to stay until he is 74 
years old, which is another 13 years. So we also need to be 
engaged, as I outlined, in trying to make the democratic system 
better there.
    Chairman Royce. So his intention would be violence against 
protesters calling for fair elections, continue to subvert the 
elections, as he has, for the next 13 years?
    Mr. Craner. The CPP has learned that they either hang 
together or they hang apart. And for all the years since 1991, 
they have been a very cohesive group.
    Until there is more political openness and the possibility 
of political change in Cambodia, that is not going to--that is 
not going to change.
    Chairman Royce. Yeah. The problem is that, with the 
opposition, candidates can't even go into these areas to 
campaign because the police and ruling party supporters come 
out and block passage and beat people.
    And so, you know, you don't have an opportunity to conduct 
a fair election----
    Mr. Craner. And that is why----
    Chairman Royce [continuing]. To say nothing of the ballot 
count, which is truly preposterous.
    Mr. Craner. Yes. That is why all of the countries--Europe, 
the United States, Australia, Japan and others--and, hopefully, 
people in the region--countries in the region need to be 
engaged before the next election.
    And it is especially important that, as the rules are drawn 
up in terms of the National Election Commission for the next 
election, that all of these countries remain engaged to try and 
make it a better system.
    Chairman Royce. Yeah.
    Let me go to Mr. Engel of New York.
    Thank you, Lorne.
    Mr. Engel. Thank you, Mr. Chairman.
    Why don't I start with you, Mr. Craner. I believe that the 
promotion of human rights and democracy and the rule of law 
cannot be separated from our foreign policy toward the Asia-
Pacific region.
    Would you agree with that statement? And how can we improve 
our efforts to ensure that the respect for human rights is part 
of our larger Asia pivot strategy?
    Mr. Craner. You have a critical role in doing that, both in 
terms of the resolutions that you offer, in terms of the aid 
decisions that you make, in terms of visits by all of you to 
these countries.
    But most of all--and I can tell you, having been in the 
bureaucracy a couple of times--there is nothing like a hearing 
to focus the mind of an executive branch diplomat on what 
should be happening.
    And if every time somebody--the Assistant Secretary for 
Asia or DAS from Asia comes up here they are questioned 
intensely by you on human rights, I can guarantee you they will 
return to the State Department and say, ``We really need to 
look into this because I don't want to be up there again 3 
months from now getting hammered on this issue.''
    So you have a critical role to play in that. Absent that, 
the incentive in the executive branch is to get along with a 
country, good, bad or ugly.
    Mr. Engel. Thank you very much.
    Mr. Andrews, the Constitution forbids Aung San Suu Kyi from 
running for President next year.
    Given the popularity, what impact will this provision have 
on the elections or stability in Burma?
    Mr. Andrews. Well, Congressman Engel, first of all, let me 
thank you for your leadership and concern on what is happening 
in Burma on a full range of issues. But the one that you 
mentioned is a very important one.
    Burma is not a democracy. Let's be very clear about that. 
The military of Burma have a guarantee of 25 percent of the 
seats in the Government of Burma. They are not going to give 
that up. They have a guarantied veto over any changes to the 
Constitution in Burma.
    In order for Aung San Suu Kyi to be eligible to run for 
President, that constitution is going to have to change, and 
there has been absolutely no indications if they are going to 
allow that to happen.
    So many of the repressive policies and practices in Burma 
are being driven by a very unbalanced political system, a very 
unfair political system.
    And, really, those that were responsible for many of the 
atrocities that we have discussed and many of those that 
existed before this major reform are still there.
    They might have changed their clothes. They may no longer 
have their uniforms on. But they are still in control, and that 
remains the fundamental problem.
    Mr. Engel. Let me ask you another question about Burma. We 
mentioned--I mentioned it in my opening statement.
    Can you explain why the government is instigating violence 
against the Rohingya and why does the government apparently 
feel it is to their benefit to do so.
    Mr. Andrews. It is a very good question, Congressman Engel, 
and I have asked of that many people.
    There is a variety of reasons. But one of them relates to 
your first question, and that is this idea that the military 
likes to discuss what they call disciplined democracy, that if 
you allow too much freedom, too much democracy, that things can 
get out of hand, there can be violence, and, therefore, a 
justification for an increased role and a strong role for the 
military and a further excuse not to move forward with these 
reforms.
    This is not the first country in the world in which 
politicians have appealed to the darker nature of human beings, 
to bigotry, to racism, to fear, and that is very much in 
effect.
    And what my deep concern is is that this is going to 
continue and intensify as we move forward to the 2015 elections 
and political leaders and military leaders feel that they need 
to continue to use that card as those elections get closer.
    Mr. Engel. Thank you.
    Let me ask Ms. Nguyen or Mr. Nguyen questions about 
Vietnam. Two things.
    Does worsening China-Vietnam ties present an opportunity to 
the United States to fully engage with the Vietnamese 
Government on human rights issues?
    They are actually appealing to us to side with them against 
China. China's being very aggressive in the South China Sea, 
and both Vietnam and the Philippines have been besieging us to 
help them.
    Does this present an opportunity for us to say, ``Okay. You 
want our help, we want to see an improvement on your human 
rights abuses''?
    Ms. Janet Nguyen. Congressman, absolutely. This is the 
opportunity to tell the country of Vietnam and the Government 
of Vietnam that, ``We are here to help and support your cause 
and to protect the Pacific Rim, but you also need to honor our 
own liberty and our rights and everybody's rights.'' And so, 
yes.
    Mr. Engel. Mr. Nguyen, would you agree with that?
    Mr. Thang Nguyen. Yes. I fully agree with the assessment of 
Supervisor Nguyen. And I think there are two reasons why this 
is a golden opportunity for this country to demand a certain 
minimum standard of human rights as a contingency for Vietnam 
to expand ties with the U.S.
    One is that, for a long time, there has been an opinion 
among some decision-makers in our own Government that, if we 
are too strong on Vietnam in terms of human rights and 
democracy, then that might push Vietnam further into the orbit 
of China. That argument or opinion no longer has a basis 
because there is no way for Vietnam to come any closer to China 
at this time.
    Secondly, Vietnam now needs the U.S. not only because its 
economy is in shambles, but also because Vietnam needs 
legitimacy, needs recognition by the U.S. and the free world as 
it faces China. So this is a great time for us to demand that 
Vietnam makes real and irreversible concessions on human 
rights.
    Mr. Engel. Thank you.
    Let me ask one final question on Vietnam. Because I am old 
enough to remember the Vietnam war, and I think that it is 
ironic that China and Vietnam are clashing and that Vietnam is 
now looking for protection from the United States for China. I 
think there is a lot of irony in there.
    But we keep getting reports of increased infighting within 
the Communist Party of Vietnam. And would any of you care to 
comment on the tensions? And with this infighting, will it have 
any effect on human rights issues?
    Ms. Janet Nguyen. I believe so, Congressman. One other 
thing that we should ask of Vietnam: To immediately release the 
people who have been speaking out against China's aggression 
the last 2 years.
    They have been put in prison by the Government of Vietnam 
just for those reasons, trying to protect their own homeland. 
So the Government of Vietnam ought to--the very first step is 
to release those whom they have imprisoned for protecting their 
own country. That is the first step. And we need to take this 
opportunity.
    The infighting within the Vietnam Government and the people 
of Vietnam is rising, but they need the support of the United 
States.
    It is our opportunity to say, ``We will help, but only, and 
only, when you start setting the stage for releasing 
individuals for exercising their basic human rights and allow 
the people of Vietnam to enjoy what we enjoy in the United 
States.''
    Mr. Engel. Thank you.
    Mr. Thang Nguyen. Yes. My take is that there might be 
internal differences among the members of the Politburo. 
However, they still act as one block. They make decisions 
together.
    However, there are very few options left for the leadership 
of Vietnam these days. They cannot lean on China anymore, and 
the only option is to come closer with the U.S.
    And, therefore, this is the time for us to shift the entire 
block of the Politburo membership toward the west. And we have 
seen some movement in that direction. Now we need to expedite 
that process further.
    Mr. Engel. Thank you.
    I know my time is up. I just--not asking a question. I just 
want to say that we are in the process of negotiating with 
them, with Vietnam and other countries, the TPP, the Free Trade 
Agreement. I personally think this is also a good time to put 
pressure on them because they really want this agreement.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Engel.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me ask--and maybe start with Dr. Thang--four basic 
questions and then go from my right to left.
    The U.S. Commission on International Religious Freedom's 
report on Vietnam couldn't be clearer. They say the Vietnamese 
Government continues to imprison individuals for religious 
activity or religious advocacy.
    They talk about the fact that the situation remains poor 
for all human rights, including religious freedom, and has 
deteriorated, it is going in the wrong direction.
    They make a very strong recommendation that the Country of 
Particular Concern designation be applied to Vietnam.
    After the bilateral agreement where there was undue 
euphoria that somehow things would matriculate from 
dictatorship and repression to an openness and it absolutely 
has not happened. It has gotten worse. And some of the worst of 
the worst offenders have gotten richer and now have large bank 
accounts because of that.
    So CPC, your thoughts on that.
    Secondly, on human trafficking, a few weeks ago the TIP 
Report came out, and I applaud much of what is in the TIP 
Report. I think Secretary Kerry has done a wonderful job with 
regard to most countries.
    I disagreed with China, but also with Vietnam, which was 
designated as Tier 2, even though the narrative makes very 
clear that NGOs report that trafficking-related corruption 
continues to occur and there is minimal progress in prosecuting 
labor trafficking.
    Even though they cite the new law and very often the law 
becomes a pretext for easing up on designations, it is all 
about implementation.
    They signed U.N. covenants. They passed laws. Certainly 
their Constitution looks a lot like ours in terms of respect 
for fundamental human rights, but that is the old Soviet game. 
You put it on paper. It is a paper promise that does not have 
meaning.
    I have visited many of the people who are now in prison, 
many of whom are under pagoda or house arrest, on one of many 
trips to Vietnam: The Venerable Thich Quang Do, he was under 
pagoda arrest; Father Loi, under house arrest in Hue; and 
Father Ly.
    And Father Ly, as we all know, was re-arrested and has been 
subjected to unbelievably cruel and harsh treatment just for 
speaking out. And he submitted testimony to this Congress 
several years back--an unbelievably brave move--and for that he 
gets more prison time as part of a cumulating, ever-worsening 
situation for him vis-a-vis the Government of Vietnam.
    So Tier 2, do you believe it ought to be Tier 3, as I do?
    I wrote the Trafficking Victims Protection Act. The minimum 
standards prescribed in that act couldn't be clearer: 
Government complicity. It is government complicity and then 
some.
    We have had several hearings. Dr. Thang testified at one 
and was very eloquent at pointing out both sex and especially 
labor trafficking, how things have actually gotten worse there.
    Third, the Senate vote on the Vietnam Human Rights Act, we 
have asked with deep respect to Senator Reid. Just post it for 
a vote. Your thoughts on that.
    And, finally, the Podesta Group I mentioned in my opening, 
they are getting $30,000 per month to advise the government in 
Vietnam and the Embassy here on how to handle these issues.
    And I believe they are icing the puck over on the Senate 
side. Just don't bring it up. There is no vote. And that will 
be the end of it.
    So your thoughts, Dr. Thang.
    Mr. Thang Nguyen. Thank you, Mr. Chairman. I would like to 
address the first two questions first and go to the others if 
there is still time. About the CPC designation, I think that 
Vietnam clearly deserves to be redesignated as a Country of 
Particular Concern. Clearly, the atrocities against the 
communities of faith have exceeded the threshold for 
designation. We talk about the forced renunciation of faith; we 
talk about torture, sometimes leading to death; we talk about 
the wiping out of entire religious communities, such as the Con 
Dau Parish or the Hmong villages or Christian villages in the 
northern western region of Vietnam.
    So clearly, however, I think that our own State Department 
has been duped into believing that the increase in the number 
of registration of religious organizations is a good benchmark. 
It is not, for one good reason: These organizations that have 
been registered by the government in Vietnam to officially 
operate are usually those set up by the Government of Vietnam 
itself as instruments to control the independent groups. And 
therefore, with Decree 92, these independent religious 
communities may not even conduct activities at home, in their 
own privacy at home.
    So they have only two choices: Either to join the 
government-sanctioned and registered churches or they have to 
go out of existence. So that is not freedom of religion. That 
is controlled religion. So we are asking Vietnam to increase 
its control of religion. So we are asking the wrong question. 
And therefore I would propose that we demand that Decree 92 be 
abolished. And, two, we should present Vietnam with a list of 
genuine religious organizations, and we would want to see those 
and only those to be registered.
    In terms of human trafficking, thanks to the ranking of 
Russia in Tier 3 last year, the Government of Russia stepped up 
its crackdown on a number of sweatshops owned by Vietnamese 
around Moscow in the last 4 months of 2013. The Government of 
Russia raided almost 60 sweatshops owned by Vietnamese in 
Moscow, liberating almost 6,000 Vietnamese workers held in 
slavery.
    And we are talking about slavery, because many of these 
victims had never seen sunlight for 2 or 3 years. They are kept 
in captivity underground. And yet, none of them has been--and 
all of them have been repatriated--and none of them has been 
recognized by the Vietnamese Government as a victim of labor 
trafficking. No labor export company has been investigated, let 
alone prosecuted. So clearly Vietnam hasn't done its job at all 
to fight human trafficking.
    Ms. Janet Nguyen. Congressman, thank you for your 
questions. I have been an advocate for years, have asked our 
Government to put Vietnam back on the CPC. Violation of human 
rights, religious rights, and also human trafficking, as you 
have stated, have increased. They have not decreased. They need 
to be placed back on the CPC. We need to put the human 
trafficking issue at Tier 3. H.R. 4254 seeks to achieve 
specific targeted goals to achieve greater human rights in 
Vietnam and does not interfere with our Nation's bigger 
strategic concerns. We need to put these individuals who 
violate the human rights and religious freedom of the people of 
Vietnam on target--tell them you will not be allowed in the 
United States, nor will you be allowed to use our financial 
system.
    And with regards to human trafficking, it is not just human 
trafficking for labor, but children are exploited for tourism, 
for sex slavery. So many, it is incredible. I have two young 
children. I cannot fathom the idea that anything could happen 
to my children or any children in the world to be used in these 
ways. So we need to protect those children, give them a future, 
give them a life.
    Chairman Royce. Well, Mr. Smith, if I could explain a 
point. You are raising this issue in terms of people 
registering, but the problem, for example, the Buddhist text, 
the head of the Hoa Hoa Church, as well as Thich Quang Do, both 
showed me copies. Their Buddhist texts don't match up well with 
the Communist Manifesto. And so the problem was the party 
rewrote the text, and so as a consequence they feel that their 
faith dictates that they keep their historical text. And so as 
a consequence, they can't be registered.
    So this is not really religious freedom. And for our 
Government to be talking about the fact that, look how they 
have signed up, we have got these different religious leaders 
that the party is putting forward, the recognized leaders of 
both of those churches are not on the list because they are in 
prison, as you visited them both.
    We will go now to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to the witnesses for this very important 
testimony.
    I would like to first ask you, Mr. Andrews, and Mr. Craner, 
there has obviously been a lot of reporting about the human 
rights and democratization reforms in Burma and that they have 
stalled and there has been significant backsliding. And, in 
fact, a former U.N. Special Rapporteur for Human Rights said 
that there was an element of genocide in the attacks against 
the Rohingya population.
    So I want to ask you whether you think that is an accurate 
assessment, and what can we do as a country to effectively 
encourage the Burmese Government to stop engaging this kind of 
mistreatment of a very vulnerable population?
    Mr. Andrews. Well, thank you, Congressman. Let me go first.
    I have in my testimony and certainly will be happy to 
discuss with you further the report that we issued after one of 
my trips, ``Marching to Genocide in Burma.'' The people in 
Burma, the Muslim minorities and others, they are being 
targeted not because of anything that they have done, but 
because who they are, their ethnicity and the God that they 
pray to. And because of that, all the things that we have 
described have been inflicted upon them, and that is not simply 
a matter of inter-ethnic tensions or religious tension. This is 
being done systemically with the support of the government. And 
that is where I think the United States needs to play a role. 
The Government of Burma needs to be held accountable.
    President Thein Sein of Burma made 11 specific pledges to 
President Obama back in November 2012. He has come through with 
only 1 of those 11 commitments, including the commitment to 
allow the U.N. Office of High Commissioner to have free access 
to the areas that are under siege, to restore the healthcare 
services to Rakhine State that we just mentioned, to allow 
credible independent investigations into these areas.
    And by the way, people that told me about the problem of 
having Doctors Without Borders thrown out, they said it is not 
just that. It is these independent eyes that have now been 
expelled from those very areas where this violence is 
continuing.
    So it is incredibly important that we establish those 
standards and then take action. I mean, there are various tools 
that we have at our disposal. We mentioned them. I mentioned 
them very specifically in my testimony. Specially Designated 
Nationals list needs to be identified, whether or not you 
qualified for the General System of Preferences.
    Having standards for the military-to-military relations and 
not allowing it to go further unless those standards are met, 
for example, the Burma Human Rights and Democracy Act of 2014. 
Congressman Chabot is the sponsor of that. H.R. 4377 outlined 
specifically the conditions that we would set in order for 
there to be continued relations between the two militaries. All 
of these things could help to move us in a better direction.
    Mr. Cicilline. Thank you.
    In addition to the concerns that this hearing has raised 
with respect to Burma and Vietnam, I also want to focus for a 
moment on another human rights situation in the region, that is 
in Thailand. I am particularly concerned about the prevalence 
of human trafficking in that country. In the State Department's 
most recent TIP report it downgraded Thailand to Tier 3. It was 
reported that there is a significant portion of labor 
trafficking victims within Thailand, that they are exploited in 
commercial fishing, fishing-related industries, low-end 
garment-production factories and domestic work. And many of 
these workers are coming from other countries in the region, 
such as Vietnam and Burma.
    American consumers should not be incentivizing this 
horrendous behavior. And so I would like to know whether you 
think we are currently doing enough to ensure that goods that 
are produced by forced labor or even trafficked labor are not 
available on the U.S. market. That is for anyone who has a view 
on that.
    Mr. Thang Nguyen. Well, we have operations in Malaysia and 
Thailand and Taiwan to fight human trafficking. We do not have 
the full expertise on human trafficking in Thailand, however. 
But we know in cases that we have worked on in Malaysia where 
Thai fishing vessels have been intercepted and very young boys, 
underage, Cambodians, have been kept for years on those 
vessels, and we rescued them.
    Yes, there are some adults from Cambodia and other 
countries, the Philippines and Vietnam, who are on those 
vessels. And I think, I am guessing, that there is a lot more 
of those incidents that haven't been caught.
    So that is an area that is very murky because we don't know 
which country has jurisdiction, and therefore we really need to 
step up, and there ought to be a region-wide effort to fight 
that form of trafficking on fishing vessels.
    Mr. Cicilline. Yeah. And also we need to be doing more to 
make sure that we are not making those products available in 
the U.S. markets.
    I just want to, with my few seconds left, ask one remaining 
question. I recently introduced H.R. 4907, the Global Respect 
Act, which would ban entry into the United States of those who 
commit serious human rights violations against members of the 
lesbian, gay, bisexual, and transgender community. And while 
the region has a good deal of positive news, a number of 
countries, such as Malaysia, Indonesia, and particularly 
Brunei, are moving in the wrong direction. And I am 
particularly concerned about efforts in Brunei to further 
criminalize same-sex relations and possibly to include the 
death penalty.
    And I wonder if the witnesses could share whether or not 
you think we as a government and this body as the Congress are 
doing enough to support the human rights and fundamental 
freedoms of LGBT persons throughout the world and what more can 
and should be done to protect basic human rights of people from 
this community.
    Ms. Janet Nguyen. Congressman, I just think in general our 
country needs to do a lot more when we have trade partners 
around the world. They need to also honor our liberty, our 
rights, and human rights that we give to our people. And so 
regardless of the individual, I think everybody deserves their 
human rights and basic human freedom. And so I think that we 
should demand more from these countries.
    Mr. Cicilline. Thank you.
    Chairman Royce. Thank you.
    We go now to the chairman of the Asia Subcommittee, Steve 
Chabot from Ohio.
    Mr. Chabot. Thank you very much, Mr. Chairman. And thank 
you very much for holding this important hearing. I really 
think we are discussing an awful lot of very important issues, 
and I want to thank the panel and you for that.
    Earlier this year, I introduced bipartisan legislation, 
which Mr. Andrews has referred to already, along with our 
colleague Joe Crowley, H.R. 4377, the Burma Human Rights and 
Democracy Act of 2014, to prohibit military assistance to the 
Burmese Government and restrict engagement with the junta until 
certain necessary reforms in that country are made.
    Mr. Andrews, I want to thank you for your support of that 
particular measure.
    Engagement with the Burmese military ignores the fact that 
the junta still has considerable leverage over the government, 
is obstructing constitutional reforms, and is complicit in 
human rights abuses against ethnic and religious minorities, 
something that has not changed and unlikely, unfortunately, it 
appears to change anytime in the near future.
    Tom, in your testimony, you described in great detail the 
abuses being committed against ethnic minorities, particularly 
the Rohingya Muslims in Burma. Would you go into more detail 
about the Burmese military's role in these abuses and what they 
are doing to impede further democratic reforms? And also would 
you comment on our military-to-military engagement with Burma 
and perhaps give your thoughts about the legislation that we 
have discussed as well?
    Mr. Andrews. Yes. Thank you, Mr. Chairman. Let me say that 
I think that the legislation, 4377, is extremely important, and 
I think it is important for all of us to recognize the 
difference between the relationship between our Congress and 
our military and what happens over in Burma. I used to serve on 
the Armed Services Committee. And in Burma, the military is not 
accountable to the Parliament; in fact, the military has veto 
power over the constitution of the country. They have enormous 
economic power. So they are not being held accountable.
    And one of the key provisions of your legislation is the 
demand that there be constitutional reforms so that there is 
accountability of this military and it does come under the 
government and the Parliament, much as our military functions 
here in the United States. It is extremely important. And the 
role that they play in all of these various areas is multiple.
    Mandalay, last week, the violence in Mandalay, I got calls 
and emails from Mandalay. As you know, there was religious 
violence there. Wirathu had one of his rallies. He posted on 
his Facebook page that there was a jihad that was happening, a 
Muslim jihad right then and there and they were out to destroy 
all of the Buddhists. Mobs formed and violence ensued. One of 
the people who I knew and worked with there was killed on his 
way to a mosque.
    What I heard was, was that the security forces, while they 
eventually came in and had a curfew, it took them quite a 
while. They were very close by to where this violence occurred. 
It took them quite a while to appear, and that is the pattern 
that we have seen in many other places.
    But perhaps one of the most egregious examples is in Kachin 
State where I visited a few years ago. I mean, literally, these 
villages, I went into villages that were completely wiped out, 
not a single person to be seen. I mean, there were literally 
shells falling while I was in Kachin State. And the attacks on 
these villages by the military and the systematic use of rape 
as a means of intimidation and control continue to this day. So 
it is an out-of-control institution that has too much power, 
and we have got to address it directly or we are not going to 
see the kind of changes that we want.
    Mr. Chabot. Thank you.
    Mr. Craner.
    Mr. Craner. It is way premature to be having relations with 
the Burmese military. I noticed that there was a senior U.S. 
delegation through Yangon about 2 weeks ago, including I 
believe it was the Chief of Staff for the CINCPAC, and some 
State Department officials paving the way for U.S. military 
training of the Burmese military, which I just think at this 
point is, as I said, extremely premature. We have already 
frontloaded this Burmese process, trying to have a 
rapproachment with them. We don't need to keep adding to it.
    Mr. Royce referred earlier to a Human Rights Watch report. 
There is another one on what are called the Angkor Sentinel 
Exercises, which are joint U.S.-Cambodian exercises, that I 
think is worth your looking at. Their congress imposed 
restrictions, saying that the training could only be about 
human rights, democracy, et cetera. And Brad Smith of Human 
Rights Watch has shown that that is not what is going on in our 
training of the Cambodian military. That is a cautionary tale 
for working with Burma's military.
    Mr. Chabot. Thank you.
    Mr. Chairman, I see my time has expired. Thank you.
    Chairman Royce. Thank you. Thank you very much.
    We go now to Mr. Alan Lowenthal of California.
    Mr. Lowenthal. Thank you, Mr. Chair.
    You know, Mr. Chair, you mentioned earlier the importance 
of broadcasting in alternative views into countries that have 
great human rights violations. And I want to raise to either 
Secretary Craner or Supervisor Nguyen or Dr. Nguyen, the 
Broadcasting Board of Governors recently issued numerous cuts 
to shortwave broadcasting across the globe, including the 
cessation of all shortwave into Vietnam.
    Do you think this was a wise decision, and do you think 
shortwave as a medium for disseminating independent information 
is important at this time? The issue is, how important is this? 
We have just received this notice. I would like to be able to 
respond to that. And so I would like to hear if there are any 
points of view on the cessation of shortwave broadcasting into 
Vietnam.
    Mr. Thang Nguyen. I believe that that decision was made on 
the assumption that now the Internet is widespread everywhere, 
but that is not the case at all. For the Hmong Protestants, for 
instance, that we are talking about, all the way up in the 
mountains, the northwestern region of Vietnam, for the 
Montagnard Christians in the Central Highlands, or the Khmer 
Krom all the way down south, in remote areas, they don't have 
access to the Internet. So shortwave radio is the only windows 
to the outside world. So I think it is very imperative that 
Radio Free Asia, for instance, continues to broadcast into 
Vietnam. And not only in Vietnam, but in other countries in 
Southeast Asia.
    I would like to take this opportunity to again commend the 
chairman and the committee members here for holding this 
hearing at this time. This is very critical time, because 
countries in Southeast Asia, 11 countries are taking steps to 
come together as one single bloc in the model of the European 
Union. So this is the time for us to really influence and 
promote human rights and democracy, so that we will see one day 
a stable, trustworthy, democratic bloc being our ally in the 
region instead of seeing the entire region descending into the 
darkness of dictatorship and chaos.
    Mr. Lowenthal. Supervisor.
    Ms. Janet Nguyen. Thank you, Congressman.
    Limiting any kind of broadcasting limits the freedom of 
speech and views. So I absolutely agree that we need to allow 
shortwave radios across the country because that is when we 
allow the freedom of speech and the freedom of the press to be 
able to give different opinions to the people of Vietnam. And 
so we need to support allowing that.
    Mr. Lowenthal. Thank you.
    I have a question for Secretary Craner. You mentioned the 
numerous flaws in Cambodia's recent elections and some of the 
issues. And the question I would like to know is, what specific 
actions--and you talked about what we might do--but what 
specific actions do you think the United States at this moment 
can do to promote free and fair elections in Cambodia, and what 
are the options, and do you think the prospects for 
international monitors in future elections?
    Mr. Craner. International monitors had visited past 
Cambodian elections. The reason they didn't visit this most 
recent election in 2013 was that the U.S. and the Europeans 
both said there is no point in going. This process is already 
so flawed because of the voter registration list, the 
intimidation of the opposition, that even if the election day 
looks good, it is an illegitimate process.
    What can we do to help----
    Mr. Lowenthal. What can we do, specifically?
    Mr. Craner. What can we do to help make it better? There is 
no reason for any country these days not to have a technically 
good election. And here again pressure needs to come, more 
pressure from the United States, but also pressure from Europe 
and pressure from countries within the region to say there 
needs to be a decent election in Cambodia. There hasn't been a 
good election in Cambodia since 1993.
    Mr. Lowenthal. Should we be calling for an earlier 
election?
    Mr. Craner. No. That is between the, I would say, between 
the opposition and the government to decide in their current 
negotiations. But as I said, there shouldn't be any high-level 
contact with Cambodia until those negotiations are resolved 
well.
    Mr. Lowenthal. I would also like to ask Supervisor Nguyen 
and Dr. Nguyen, we talked about trade relations between the 
United States, and I think Ranking Member Engel brought up the 
TPP. What would you like to see this Congress do in terms of 
the TPP negotiations between Vietnam as one of the 13 nations 
in the TPP? Would you like us to take a statement on that?
    Mr. Thang Nguyen. Yes.
    Mr. Lowenthal. Either one.
    Mr. Thang Nguyen. Yes, yes, definitely. This is the time 
for Congress to come out and make a very strong statement, 
unmistakably clear to Vietnam, and also to our own 
administration, that human rights concessions to the extent 
that they should be irreversible be considered as a condition, 
precondition for any further approachment with Vietnam on TPP, 
and it should be part of the ongoing negotiations with Vietnam.
    For instance, the basic, fundamental rights of Vietnamese 
people must be respected. That is the freedom of expression, 
the freedom of peaceful assembly, and the freedom of 
association. And also, there should be benchmarks. For 
instance, the release of all prisoners of conscience or the 
vast majority of the prisoners of conscience before Vietnam be 
admitted into TPP.
    The abolition of all instruments of violence and force that 
have been used by the Government of Vietnam to repress, arrest 
and imprison dissidents must be in effect. In November of this 
year, the National Assembly of Vietnam will convene and that 
would be a great opportunity for them to revisit all these laws 
that, by the way, are now out of line with their new 
constitution. And clearly, they should respect the full freedom 
of all workers to form their own free and independent labor 
unions.
    Mr. Lowenthal. Thank you.
    I have used up my time, so, Supervisor Nguyen, do you just 
want to briefly respond to that?
    Ms. Janet Nguyen. Yes. I agree, as well. We need to make 
Vietnam accountable. In order for them to enjoy the trade with 
our great Nation, they have to also honor our liberty and give 
the people of Vietnam basic rights and release the prisoners.
    Mr. Lowenthal. So if you were looking at the actions by the 
Congress, you would not support a fast tracking of this 
agreement unless there were definite changes in their human 
rights?
    Ms. Janet Nguyen. Yes.
    Mr. Lowenthal. Thank you.
    I yield back.
    Chairman Royce. Thank you, Mr. Lowenthal.
    We go now to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you, Mr. Chairman. And I want to 
thank you for the leadership you have provided. When we are 
talking about broadcasting, we are actually talking about Ed 
Royce over there. I mean, he came to Congress with the idea we 
are going to make sure that we broadcast the word of freedom to 
the people of the world, especially Southeast Asia. So he put a 
lot of time and effort into that, and we are very grateful to 
him for it.
    In terms of Burma, and, Mr. Andrews, thank you for your 
testimony today. I think it is really significant that we have 
Muslims and Christians being attacked. This is a military 
attack on the Christians, I understand that, and perhaps with 
the Muslims what we have is the government standing back and 
letting mobs of people murder Muslims. We need to make sure 
that message gets through to the Government of Burma that they 
are now not considered a government in transition to freedom as 
long as these murders are taking place. And I have been 
watching this very closely. Thank you for your testimony today.
    Let us hope the people of Cambodia understand they are not 
being forgotten, as well, today, because what we have had in 
Cambodia is a regime that actually exploits the tyranny on its 
own borders because people then come there and are exploited by 
people who are in a clique with Hun Sen, and Hun Sen has run 
that government as his own personal clique for a long time.
    The fact is there isn't democracy in Thailand today, and we 
want the people of Thailand to understand that is of grave 
concern to us that they are in a state where the military now 
is controlling their government and that we are watching that 
very, very closely and care about it. Thailand was such a 
wonderful example of what could work for so many years.
    And finally, about Vietnam, I find it fascinating that we 
have this dedication to Marxism-Leninism that motivates these 
people to murder and to suppress religious believers in that 
country. Yet, they are not so dedicated to Marxism-Leninism 
that they can't make deals with businessmen and set up 
corporations in order to rip off people who aren't able to form 
labor unions and to negotiate their contracts or to have 
strikes or to even criticize the government or those 
businesses.
    So this type of hypocrisy that we see in Vietnam, I join 
with you today in calling for the Government of Vietnam, at the 
very least they should, if they no longer are committed to 
Marxism-Leninism, which is clear by their economic policies, 
let them step back from the part of Marxism and Leninism that 
has motivated them to attack people's religious freedom. Let 
religious freedom go off of their agenda. They have felt 
compelled to force people to renounce their faith, as we heard 
in testimony today. This is absurd for a government that is 
permitting big business to come in and set up business in their 
country.
    And finally, Ms. Nguyen, Janet, your concept of making sure 
that our very first demand on Vietnam is they let those, 
especially young people go, who are doing nothing more than 
standing up against Chinese aggression is a very significant 
point that I share; I join you in that demand.
    And finally, I just would like to say about the 
Montagnards, because I spent some time in the Montagnards in 
1967, and to hear that they are now being tortured and being 
basically forced to renounce their faith is appalling. They are 
wonderful people. These are basically native peoples to that 
part of the world, friendly, and have a wonderful and positive 
and peaceful culture. So I am sorry to hear that. And I hope 
that we pay back some of the debts that we owe to the 
Vietnamese people and to the Montagnards for what they did to 
stand beside us in the battle against Communist tyranny when 
the Cold War was at its hottest.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    I believe there was a follow-up. Two of the members of our 
panel had been asked a question, Mr. Smith.
    Mr. Smith. Thank you very much.
    Chairman Royce. And you wanted that question answered, I 
think, by the other two.
    Mr. Smith. Yes.
    To Congressman Andrews and Secretary Craner, on the CPC for 
Vietnam, secondly on trafficking, I believe it ought to be Tier 
3. Your thoughts? The point that I brought out about the 
Podesta Group getting $30,000 per month to kill the bill in the 
Senate, the Vietnam Human Rights Act, your thoughts on that?
    And then an appeal to Majority Leader Reid to just post it 
for a vote. It has been since 2004. Republicans owned the 
Senate then, so this is a bipartisan angst that I have had that 
we have not been able to get this bill up for a vote in the 
Senate, and it has been iced, and now we know the Podesta Group 
is playing a key role. Your thoughts?
    Mr. Craner. First of all, I never understood how Vietnam 
got off CPC status. We had an Ambassador For Religious Freedom 
at that point, as you will remember. I believe it happened in 
about 2005, something like that. But I never understood how 
they managed to get off.
    Your TTIP bill was incredibly well constructed because it 
actually has penalties if you are in Tier 3, as you know. And 
so my observation, while I was in government, was that the 
State Department and countries involved would do almost 
anything to get out of Tier 3 and that by doing almost anything 
they could get out of Tier 3. In other words, you don't have to 
do much to get out of Tier 3, and I think that may be the 
problem.
    I don't think I ever saw as many cables go between here and 
Uzbekistan as I saw one summer when they were threatened with 
Tier 3 status. It was pretty amazing. So it was a well-
constructed bill, like I said. It is amazing to me that the 
VHRA cannot get through the Senate, that it can't even be 
brought up for a vote. I think that is stunning. And I would 
hope there would be some people with good conscience over there 
who would be willing to help out. Thank you.
    Mr. Andrews. Congressman, I think, first of all, you are 
right, I think Tier 3 is appropriate. But from my vantage 
point, focusing on the case of Burma and the families who have 
been trafficked, in fact I actually, when I was traveling in 
the region, tracked down traffickers and talked to them about 
how they make their living and the booming market that exists 
for them, just horrendous.
    I also believe, and I would encourage Congress to focus 
also on the supply side of this, that the reason that this 
trafficking has occurred and there is a significant increase 
coming from places like Burma is precisely because of the 
conditions in Burma. And when I sat down and met with some 
families in Malaysia, for example, who by the grace of God made 
it through and were safe, I said, how could you put your--and I 
am sitting there with young children, a mother and a father who 
put these kids on a boat and risked their entire family's life 
to get out of the country. And they said, you know, we had a 
family meeting about this. We knew we might die. But if we died 
on the sea we would die together. We are dying in these camps 
right now. It was a horrendous thing.
    So if we can deal with the supply side, if we can confront 
the conditions that are driving these people out of places like 
Burma, we would be doing a major, major service and making 
major strides in a very important issue that you that you have 
championed, Mr. Chairman.
    Mr. Smith. So nobody wants to raise the Podesta Group or 
speak to that? Okay.
    Mr. Thang Nguyen. Well, talking about Podesta Group I have 
a tangential answer only.
    To also add on to the answer to the question that was posed 
by Mr. Chairman sometime ago about the two issues that are on 
the mind of most Vietnamese-Americans these days are (1) the 
acts of aggression of China in the South China Sea; and (2) 
human rights in Vietnam, violations of human rights in Vietnam. 
So those are the two major issues on the mind of most 
Vietnamese-Americans. And next week there will be about 500 
Vietnamese-Americans coming from across the country to walk the 
halls of Congress and to meet with Members of Congress, and 
that is our way to counter the Podesta Group.
    Chairman Royce. I want to thank all our witnesses for 
making the trip out here today to testify. And this committee 
hearing stands adjourned.
    [Whereupon, at 11:47 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


[Note: Material submitted for the record by the Honorable Tom Andrews, 
president and chief executive officer, United to End Genocide (former 
United States Representative), titled ``Marching to Genocide in Burma: 
Fueled by Government Action and a Systematic Campaign of Hate Aided and 
Abetted by the Diverted Eyes of the Word,'' is not reprinted here but 
is available in committee records.]



                                 [all]

</pre></body></html>
